No. 20-1611
IN THE

Supreme Court of the United States
HEALTHCARE DISTRIBUTION ALLIANCE, et al.,
Petitioners,
v.
LETITIA JAMES, Attorney General
of New York, et al.
Respondents.
CERTIFICATE OF SERVICE
Oren L. Zeve, a member of the bar of this Court, hereby certifies that all parties
required to be served, as listed below, have been served with a copy of the
accompanying Brief in Opposition on July 19, 2021, and that all parties have
consented to service by electronic mail:
Counsel for Petitioners
Michael B. Kimberly
McDermott Will & Emery LLP
mkimberly@mwe.com
(202) 756-8901
Executed July 19, 2021,
. /s/ Oren L. Zeve ________
.
Oren L. Zeve
Managing Assistant Solicitor General
New York State Office of the Attorney General
28 Liberty Street
New York, NY 10005

